Audit of Special Telework

 Arrangements at NARA



OIG Audit Report No. 14-11



       May 5, 2014

Table of Contents



Executive Summary ........................................................................................ 3


Background ..................................................................................................... 5


Objectives, Scope, Methodology .................................................................... 8


Audit Results................................................................................................. 10


Appendix A – Acronyms and Abbreviations ............................................... 30


Appendix B - Management’s Response to the Report ................................. 31


Appendix C - Report Distribution List ......................................................... 32

                                                            OIG Audit Report No. 14-11


Executive Summary

Federal telework programs are established primarily to meet agency mission and
operational needs. In July 2013, NARA management identified 29 unique telework
arrangements including full-time and long distance telework and requested the Office of
the Inspector General (OIG) perform an audit in this area. Our overall objective was to
determine whether these arrangements were administered in accordance with NARA
policy and procedures. In addition, we assessed whether NARA supervisors were
properly monitoring and certifying employee work time to ensure that an acceptable level
of output resulted from the time spent teleworking.

NARA’s telework program suffers from a lack of effective oversight and weak internal
controls. We identified several areas where improvement is needed to ensure special
telework arrangements are administered in accordance with policy and procedures, and
are in NARA’s best interest. These include:

   •	 Current telework agreements were not available for 18 of the 29 special telework
      arrangements. Without a telework agreement in place, the terms and conditions
      of the employee’s participation in the telework program and the specific work
      arrangement have not been formally established.

   •	 Telework agreements for long distance telework were not always approved by the
      appropriate Executive or Staff Director. Executives and Staff Directors should
      approve each long distance telework arrangement to ensure adequate office
      coverage and that the arrangement will not adversely affect NARA’s mission.

   •	 One employee did not have the correct duty station, and as a result was overpaid
      approximately $4,447 over a 14 month period due to the differences in locality
      pay.

   •	 At least half of the special telework arrangements resulted in increased travel
      costs to NARA for the employees to periodically return to their normal worksite
      for face to face meetings with colleagues or attend training events. In addition,
      NARA leased office space for one employee to work remotely from a General
      Services Administration (GSA) building in New Mexico. In approving the
      special telework arrangements, supervisors were not required to document their
      analysis as to the costs or savings of the proposed arrangement compared to the
      existing arrangement. As a result, arrangements may not be in NARA’s best
      interest.

                                        Page 3
                     National Archives and Records Administration
                                                           OIG Audit Report No. 14-11


   •	 Travel expenses for long distance telework employees to return to their normal
      worksite on official business were not always correctly reimbursed. Failure to
      reimburse official travel creates a debt to the employee, and NARA remains liable
      for these costs should the employee file a claim.

   •	 Most of the special telework arrangements we reviewed were entered into without
      a specific time limit. Although the telework agreements have to be renewed each
      year, supervisors and executives expressed concerns regarding the undefined
      length of the arrangements and whether changes could be made to the agreements.
      Establishing an estimated timeframe for the agreement would help to ensure the
      supervisor’s and employee’s expectations were met.

Our review of special telework arrangements included six arrangements granted as a
result of reasonable accommodation requests. Of the six arrangements, two were not
documented using NA Form 3043 and NA Form 3044, as required. NARA policy
requires all requests for accommodation be documented in order for NARA to keep
accurate records for annual reporting purposes.

We also noted NARA supervisors used several different techniques to effectively monitor
telework employees. Opportunities exist to take advantage of best practices for
managing special telework arrangements. Sharing this information across NARA would
assist supervisors who are responsible for monitoring productivity and performance of
telework employees.

This report makes 11 recommendations to strengthen the management, accountability,
and oversight of the telework program at NARA.




                                       Page 4
                    National Archives and Records Administration
                                                                       OIG Audit Report No. 14-11


Background

Telework refers to a work flexibility arrangement under which an employee performs the
duties and responsibilities of such employee’s position, and other authorized activities,
from an approved worksite other than the location from which the employee would
otherwise work. Laws encouraging telework have been in effect for over a decade. On
December 9, 2010, the President signed the Telework Enhancement Act of 2010, Public
Law 111-292, which required each executive agency to establish and implement a policy
under which employees shall be authorized to telework. Agencies were to determine the
eligibility for all employees to participate in telework, and to notify all employees of their
eligibility to telework. The Telework Enhancement Act of 2010 also required agencies to
incorporate telework as part of the continuity of operations plans of the agency in the
event of an emergency.

NARA Directive 332, “Telework Program,” March 28, 2012, is NARA’s telework
policy. The Directive describes the different types of telework arrangements, identifies
who is eligible for a telework arrangement, and defines supervisor and employee
responsibilities. As shown in Table 1 below, there are five types of telework
arrangements available to NARA employees.

                    Table 1. Types of Telework Arrangements at NARA
    Ad Hoc             This arrangement allows for occasional telework on a non-recurring basis.
                       Examples of ad hoc telework are inclement weather, doctor appointment, or
                       special work assignments.

    Recurring          This arrangement allows an employee to enter into an ongoing arrangement to
                       work outside the office on a regularly scheduled basis, typically one to three
                       days per week or per pay period.

    Long Distance      Telework arrangements may also be approved that allows an employee to
                       work primarily at a worksite distant from the employee’s normal worksite.
                       This telework option is open to all employees whose duties can be performed
                       away from a NARA facility. Approval is required by the appropriate
                       executive/staff director.

    Emergency          Employees under emergency telework arrangements may telework for a
                       continuous period of time during an emergency in order to support the
                       performance of work functions and assist in protecting NARA staff during an
                       emergency situation.

    Unscheduled        This is a specific type of Ad Hoc Telework. Employees who already have a
                       telework agreement in place may telework from home, to the extent possible,
                       when severe weather conditions or other circumstances disrupt commuting.

                                           Page 5
                        National Archives and Records Administration
                                                              OIG Audit Report No. 14-11



NARA’s Chief of the Labor/Employee Relations and Benefit Branch was designated as
the agency’s Telework Managing Officer (TMO). The TMO is a senior agency official
who is responsible for developing and implementing telework policies and programs. In
addition, the TMO advises agency leadership on telework, assists managers and
employees with telework matters, and develops performance goals and metrics to
evaluate the effectiveness of the program.

In certain situations, NARA approved special telework arrangements to accommodate
employee’s unique health or family situations. A management data call in July 2013
identified 29 special telework arrangements, including full-time telework as a result of a
reasonable accommodation and long distance telework. As shown in Figure 1 below,
NARA has employees all over the United States participating in special telework
arrangements.

               Figure 1. Locations of Special Telework Arrangements




NARA OIG issued a previous report related to NARA’s Telework Program on
September 30, 2011, OIG 11-20 “Audit of NARA’s Telework Program.” The report
identified that NARA's Telework Program was non-compliant with the Telework
Enhancement Act of 2010. Specially, the program did not fully encompass key best
practices, or facilitate the realization of identified benefits associated with teleworking.
These conditions were due to inadequate managerial and administrative support of
NARA's telework program. The same factors resulted in a lack of training, guidance, and
                                         Page 6
                      National Archives and Records Administration
                                                                    OIG Audit Report No. 14-11


assistance for telework supervisors, which negatively impacted the overall
implementation of NARA's telework program. The audit made 17 recommendations to
ensure the telework program met mandated requirements, and improvements were made
to the security of the work at home system. Management concurred with the
recommendations and expected actions to address the recommendations would be
completed by January 31, 2012. As of February 2014, 14 of the recommendations
remain open 1.




1
 In March 2014, the OIG closed eight recommendations, therefore, only six recommendations remain
open.
                                           Page 7
                        National Archives and Records Administration
                                                           OIG Audit Report No. 14-11


Objectives, Scope, Methodology

This audit was performed at the request of management. The objective of our audit was
to determine whether special telework arrangements were administered in accordance
with NARA policy and procedures. In addition, we assessed whether NARA supervisors
were properly monitoring and certifying employee work time to ensure that an acceptable
level of output resulted from the time spent teleworking.

To accomplish our objectives, we interviewed key NARA personnel from the Office of
the Chief Operating Officer, Office of Human Capital, and Business Support Services
along with supervisors and executives of several NARA offices.

NARA provided a list of 29 special telework arrangements identified by a management
data call in July 2013. Special telework arrangements were not centrally tracked
therefore, we attempted to identify whether additional special telework arrangements
existed by reviewing the number of telework hours reported by employees in NARA’s
time keeping system. We obtained and reviewed data from pay periods #1 through #15;
however, telework hours reported in the timekeeping system did not always appear to be
reliable or accurate. We identified seven additional employees with a high number of
telework hours but upon further review, determined the arrangements included recurring
telework that did not appear to fall into the special telework category. Our audit was
limited to the 29 arrangements identified by management.

To determine whether telework arrangements were administered in accordance with
policy and procedures, we reviewed NARA Directive 332 “Telework Program;”
NARA 332, Supplement 1; Public Law 111-292, the “Telework Enhancement Act of
2010;” and the Office of Personnel Management “Guide to Telework in the Federal
Government,” to gain an understanding of Federal and NARA requirements governing
these arrangements. Based on these requirements, we requested and reviewed NARA
Telework Agreements to determine whether each individual participating in a special
telework arrangement had a telework agreement, and whether the agreement was
reviewed and signed annually by the employee and their supervisor. For long-distance
telework arrangements, we also reviewed whether the agreement was approved by an
executive or staff director. We reviewed the official duty stations for each of the 29
employees in the Federal Personnel Payroll System (FPPS) to ensure their locality pay
was correct. We also requested the latest performance evaluations to determine whether
the employees were performing at the fully successful level or above, as required by
NARA 332 to participate in a telework arrangement.

                                       Page 8
                    National Archives and Records Administration
                                                            OIG Audit Report No. 14-11


At the request of management, we obtained and reviewed employee login information
from NARA’s remote access system. However, NARA 332 does not require employees
to use the remote access system when teleworking, and after reviewing the log
information, we concluded it would not be a useful tool to monitor employee
productivity. Based on additional concerns expressed by management, we also reviewed
whether telework procedures were adequate to cancel special telework arrangements
when no longer in NARA’s best interest and whether NARA incurred additional
expenses as a result of the arrangements.

To determine whether NARA supervisors were properly monitoring and certifying
employee work time, we interviewed selected supervisors of the 29 employees to
determine what techniques or tools they used. We also compiled a list of best practices
used by supervisors that could be shared across NARA.

Our audit work was performed at Archives II in College Park, Maryland, and the Office
of the Federal Register in Washington, DC between July 2013 and February 2014. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                        Page 9
                     National Archives and Records Administration
                                                                          OIG Audit Report No. 14-11


Audit Results


1. Telework Arrangements
The special telework arrangements we reviewed were not always administered in
accordance with policy and procedures. Specifically:
    •	 Current telework agreements were not available for 18 of the 29 arrangements,
    •	 Long distance telework agreements were not always approved by an executive or
        staff director, and
    • One employee did not have the correct duty station in NARA’s payroll system.
This occurred because controls were not in place to ensure supervisors implemented the
telework policy and procedures consistently across NARA. As a result, some telework
arrangements have not been formally established, long distance telework arrangements
may adversely affect resources and office coverage, and an employee with an incorrect
duty station was overpaid approximately $4,447 over a 14 month period due to the
differences in locality pay.

A management data call in July 2013 identified 29 employees with special telework
arrangements. Special telework arrangements included long distance telework such as
remote or satellite arrangements where the employee performs their work at a site distant
from their normal worksite and full-time telework as a reasonable accommodation 2 (See
Table 2).

    Table 2. Special Telework Arrangements and Medical Accommodations by Office
NARA Organization                    Number of Special Telework                  Number of Medical
                                          Arrangements                            Accommodations
Agency Services                                 10                                      3
Human Capital                                    4                                      0
Business Support Services                        3                                      1
Strategy and
Communications                                        2                                     0
                                                      2                                     2
Information Services                                  1                                     0
Research Services                                     1                                     0
Total                                                23                                     6


2
  Reasonable accommodation is any change in the work environment, or in the way things are customarily
done, that enables an individual with a disability to apply for a job, perform a job, or gain equal access to
the benefits and privileges of a job. Allowing an employee to work at home may be a reasonable
accommodation where the person’s disability prevents successfully performing the job on-site and the job,
or parts of the job, can be performed at home without causing significant difficulty or expense.
                                             Page 10
                          National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


Current Telework Agreements

The Telework Enhancement Act of 2010 and NARA 332 require all teleworkers to have a
formal telework agreement in place specifying the terms and conditions of participation
in the program. The agreement must be reviewed and renewed annually by the employee
and the supervisor. NARA’s Telework Form, NA 3040, is used for all the different types
of telework arrangements, including ad hoc, recurring, long distance, and emergency.
NARA 332 requires supervisors to provide a copy of the approved, disapproved, or
terminated telework agreement for each employee who participates in a telework
arrangement to the NARA Telework Managing Officer (TMO).

We met with NARA’s Telework Coordinator who is responsible for managing the
telework program and requested copies of the telework agreements for the list of
employees identified in the management data call. The Telework Coordinator did not
have current telework agreements for 18 of the 29 employees. Specifically, we found the
Telework Coordinator did not have a copy of the telework agreements for five
employees, eight telework agreements had not been reviewed and renewed annually as
required; and five agreements were not current because the agreement did not match the
current telework arrangement.

According to the Telework Coordinator, she had copies of all the telework agreements
that were emailed to the telework@nara.gov mailbox. The telework coordinator created
a spreadsheet to track the telework agreements on file. The spreadsheet contained
information such as the type of telework arrangement (i.e. ad hoc, recurring, long
distance, or emergency), duration of the telework agreement, telework location, the
employee’s official duty station, the effective date of the agreement along with a renewal
date, and whether the employee completed telework training. However, this spreadsheet
was not a sufficient control to ensure all supervisors provided a copy of telework
agreements to the TMO, as required. Further, this spreadsheet was not effectively
utilized. For example, periodic monitoring of this spreadsheet would have identified the
telework agreements that had not been renewed annually. Without a current telework
agreement in place, the terms and conditions of the employee’s participation in the
telework program, and their specific work arrangement, have not been formally
established.

Long Distance Telework Agreements

NARA Directive 332 “Telework Program,” defines long distance telework arrangements
as allowing an employee to work primarily at a worksite distant from the employee’s
normal worksite. According to NARA 332 and Supplement 1, this telework option is
open to all employees whose duties can be performed away from a NARA facility but
                                        Page 11
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


approval is required by the appropriate executive or staff director in addition to the
immediate supervisor. Of the 29 special telework arrangements, we identified 24 as long
distance telework because the arrangements involved employees performing their work at
a location distant from their normal worksite. Specifically, if the employee previously
worked at Archives II in College Park, MD and voluntarily requested to telework from
another location, whether near a NARA facility or to a remote location, we considered
that arrangement to be long distance telework requiring the approval of an executive or
staff director.

We reviewed telework agreements for 21 of the 24 long distance telework arrangements.
Of the 21 agreements, 12 were approved by an executive or staff director, including four
which weren’t approved by the director until 10 months or later after the employees and
supervisors signed the agreements. The remaining nine agreements included eight signed
only by the employee and direct supervisor, and one for an employee working in
Nebraska signed only by the employee.

Interviews with supervisors revealed different definitions as to which arrangements
qualified as long distance telework. For example, if an employee voluntarily requested a
transfer from College Park to another location and worked at least one day a week at a
NARA field office, some offices did not consider the arrangement to be long-distance
telework even though the normal worksite for their position was College Park. Instead,
these requests were handled as change of duty station requests.

The Telework Coordinator also believed as long as the employee reported to a NARA
facility at least two days per pay period, they could claim that location as their duty
station and therefore, the telework would not be long distance. Based on this definition,
long distance telework would only apply to only those arrangements where the employee
would be teleworking full time at a remote location not near a NARA facility, or
arrangements where the employee teleworked from a location outside the geographical
location of their duty station. Telework agreements did not always reflect this definition
of long distance telework. In reviewing NARA 332 and Supplement 1, we found
NARA’s policy and guidance does not define long distance telework with enough clarity
to ensure the requirements for long distance telework are consistently implemented
among the offices. NARA executives and staff directors should have the opportunity to
review requests for long distance telework, or any request that would result in a change of
duty station, to ensure adequate office coverage and that the arrangement will not
adversely affect NARA’s mission.




                                        Page 12
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


Official Duty Station

All pay, leave, and travel regulations are applied on the basis of the employee’s official
duty station. The official duty station (worksite) for an employee covered by a telework
agreement is the location of the regular worksite for the employee’s position (i.e., the
place where the employee would normally work absent a telework agreement), as long as
the employee is scheduled to report physically at least twice each bi-weekly pay period
on a regular and recurring basis to that regular worksite. The official worksite for an
employee covered by a telework agreement who is not scheduled to report at least twice
each bi-weekly pay period on a regular and recurring basis to the regular worksite is the
location of the telework site (i.e., home or other alternative worksite).

We identified only one employee on the list of special telework arrangements that did not
have the correct duty station. The employee previously worked in Washington D.C. but
requested a long distance telework arrangement where they work from an alternate
worksite in a different state full time. Because the employee did not report to
Washington D.C. at least two days per pay period, their duty station should have been
changed to the alternative worksite. The salary and locality pay for the alternate worksite
was approximately $3,800 less per year than the Washington D.C. area. The employee
had been participating in the long distance telework arrangement for about 14 months
when the error was identified, therefore, the employee was overpaid approximately
$4,447. We brought this issue to the attention of the employee’s Director who took
immediate action to correct the employee’s duty station.

Recommendations

   1.	 The Chief Human Capital Officer should coordinate with the Office of
       Performance and Accountability to develop controls and relevant control
       activities to ensure telework agreements are in place, reviewed and renewed by
       the employee and the supervisor annually, and a copy of the approved,
       disapproved or terminated telework agreement is provided to the NARA
       Telework Managing Officer.
   2.	 The Chief Human Capital Officer should provide clarifying guidance to
       supervisors as to which arrangements require executive or staff director approval.
   3.	 The Chief Human Capital Officer should establish an oversight mechanism to
       ensure employee’s duty station assignments are reviewed and validated
       periodically.
   4.	 The Chief Operating Officer should seek reimbursement of the $4,447

       overpayment, or grant a waiver in accordance with 5 U.S.C. 5584.


                                           Page 13
                        National Archives and Records Administration
                                                         OIG Audit Report No. 14-11


Management Response


The Archivist concurred with the recommendations.





                                       Page 14
                    National Archives and Records Administration
                                                              OIG Audit Report No. 14-11


2. Additional Expenses As a Result of Special Telework
   Arrangements.
Several of the special telework arrangements resulted in lower personnel costs. However,
NARA incurred additional travel expenses for the employees to periodically return to
their normal worksite. In addition, NARA leased office space for one employee to work
remotely from a GSA building. In deciding whether to approve or continue the special
telework arrangement, supervisors should analyze the costs or savings of the proposed or
existing arrangement. NARA’s telework procedures, and the telework agreement form,
do not require supervisors to document this analysis or justify their decision when special
telework arrangements will result in additional costs. As a result, supervisors may not
have considered all factors related to costs or savings in deciding whether to approve
special telework arrangements, and some arrangements may not be in NARA’s best
interest.

Special telework arrangements can result in costs or savings because all pay, leave, and
travel regulations are applied on the basis of the official duty station. While some of the
special telework arrangements appeared to have been established when the individual
began working at NARA, at least eight arrangements involved employees transferring
their duty station from College Park, MD or Washington D.C. to distant locations such as
Arizona, Nebraska, and Wisconsin. The Washington D.C. pay area has one of the
highest locality pay adjustments at 24.22%. There are only eight locality pay areas
higher than the 24.22% locality pay for the Washington D.C. area. Those locality areas
include: Boston, Chicago, Hartford, Houston, Los Angeles, New York City, San
Francisco, and Alaska.

We compared the changes in locality pay for the eight employees who previously worked
in the Washington D.C. area and one employee who previously worked in St. Louis to
determine the costs or savings from these arrangements. As shown in Table 3, the
change in duty station resulted in a net savings of $28,493 to NARA since most of the
employees moved to an area with a lower locality pay.




                                        Page 15
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


            Table 3. Comparison of Locality Pay Between Duty Stations
             Grade/       Previous Duty                   New Duty                 Savings/
 Employee     Step           Station         Salary        Station       Salary     (costs)
    1        GS-14/5       College Park     $119,238    Fairfield, CT   $120,773    $(1,535)
    2        GS-14/3       College Park     $112,224     Lincoln, NE    $103,136      $9,088
    3        GS-13/8       College Park     $109,807    Belmont, NC     $100,914      $8,893
    4        GS-13/5       College Park     $100,904     Tucson, AZ      $92,732      $8,172
                                                        Woods Hole,
     5       GS-12/9      College Park       $94,837         MA          $95,280      $(443)
     6       GS-12/6     Washington D.C.     $87,350   Commerce, GA      $80,276     $7,074
     7       GS-12/4        St. Louis        $75,689   San Diego, CA     $82,339    $(6,650)
                                                        Shorewood,
     8       GS-12/2     Washington D.C.     $77,368         WI          $73,556     $3,812
     9       GS-12/2      College Park       $77,368   Ann Arbor, MI     $77,287        $81
   Total                                                                            $28,492


However, as an offset to the personnel costs savings, NARA incurred additional travel
expenses for those individuals with special telework arrangements to return periodically
to their normal worksite. According to 5 USC § 5702, an employee, when traveling on
official business away from the employee’s designated post of duty, or away from the
employee’s home or regular place of business, is entitled to any one of the following: a)
a per diem allowance; b) reimbursement for the actual and necessary expenses of official
travel; or c) a combination of payments described above. Therefore, when the
employee’s duty station is changed to their telework location, any travel back to the
normal agency worksite to perform official business is eligible for reimbursement.

We reviewed travel authorizations and vouchers for those individuals with special
telework arrangements, and found NARA paid the travel expenses for 16 employees to
return to their normal worksite periodically. Typical travel expenses included the cost of
transportation, hotel, per diem, and incidental expenses. The trip details on travel
authorizations explained that TDY was necessary for a variety of reasons including
meetings, annual project planning, laptop update and repair, and to attend training events
or give presentations. Below are several examples of travel expenses incurred by NARA:

    •	 NARA paid $49,320 in travel expenses for one employee to regularly commute
       to College Park, MD over a three year period. This included one year in which
       the individual traveled to College Park almost weekly to attend meetings.
       Although the individual worked out of a NARA field office, the employee was
       appointed to a new position in 2010. At that point the supervisor should have
       reviewed the costs associated with having the employee continue to work from
       the satellite location, if frequent meetings in College Park were necessary. Had
                                           Page 16
                       National Archives and Records Administration
                                                                         OIG Audit Report No. 14-11


         NARA changed the employee’s duty station to College Park, the employee would
         have been responsible for the costs to commute between their residence and duty
         station.

     •	 At least four employees traveled to College Park to meet with colleagues face-to­
        face. Travel expenses for the multi-day trips were between $1,708 and $2,046
        each.

     •	 One employee had to return to their previous duty station of St. Louis to receive
        new system training. Total cost of the trip was around $1,200 because the
        employee was able to stay with relatives. The roundtrip airfare of $819 from
        California to St. Louis was the majority of the expense.

     •	 Another employee traveled to St. Louis quarterly to meet with their staff for
        several days. The three trips we reviewed were each four days in length and cost
        between $1,271 and $1,417.

     •	 One employee traveled from their telework location to the closest NARA field
        office for inspection planning and laptop service. The cost of the four day trip
        was $1,092.

     •	 Another individual made quarterly trips to take his NARA laptop to the closest
        NARA facility so that he could change his password and get NARANet updates.
        Because the individual lived within 100 miles of a NARA facility, the cost for
        this temporary duty travel was usually around $100 per trip, the cost of a rental
        car and gas for the day.

Office of Management and Budget (OMB) Memorandum 13-05 “Agency
Responsibilities for Implementation of Potential Joint Committee Sequestration,”
February 27, 2013, directed agencies to apply increased scrutiny to travel spending and
ensure travel was conducted only to the extent that it is the most cost-effective way to
maintain critical agency mission operations under sequestration. NARA Notice 2013­
106 restricted travel to only several specific purposes, none of which included face to
face meetings with staff or colleagues 3. In FY 2013, some supervisors and long distance
employees utilized video conferencing technologies such as Skype and Google Video
Chat to stay connected.


3
  According to NARA Notice 2014-077, “Changes in NARA Travel Policy,” March 26, 2014, effective
immediately, travel restrictions due to sequestration were lifted for all domestic travel and the travel
restrictions in NARA Notice 2013-106 were canceled.
                                            Page 17
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 14-11


Another expense incurred by NARA as a result of one special telework arrangement was
for the lease of office space. In 2007 NARA entered into a ten year lease for an office in
a GSA building located in Albuquerque, NM. The lease states that NARA will occupy
232 usable (336 rentable) square feet of space for a period of 120 months. Federal rental
charges consisted of a shell rent plus amortized tenant improvements. Additional charges
for operating expenses and security were also calculated on an annual basis. In FY 2013,
the annual cost was approximately $4,370 for the office space for that one employee. It
was not clear why the individual did not use their residence as an alternate worksite, and
instead required the leased office space.

NARA Directive 332 and Supplement 1 to the Directive do not provide supervisors and
executives with criteria or a process for determining whether or not to approve long
distance telework arrangements. In addition, the telework form does not require
supervisors to document how the arrangement is in the best interest of NARA. In
reviewing the telework agreements and interviewing supervisors, the arrangements
appear to be in the best interest of the employee performing the long distance telework.
However, it was not always apparent how the arrangement was in NARA’s best interest.
For example, several employees had family situations requiring them to move away from
their normal worksite. In these circumstances, employees would approach their
supervisor with a request to perform long distance telework. Supervisors were not
required to perform a cost benefit analysis, or document their justification of how the
long distance telework arrangement was in the best interest of NARA or the taxpayers,
especially if the arrangement would result in increased costs to NARA.

Special telework arrangements are unique situations. To ensure agreements are equitably
assigned and are in the best interest of NARA, agreements should include supporting
documentation to address key approval factors describing how the benefits of the
arrangement outweigh any direct costs 4. In addition, the telework agreement should
contain a cost benefit analysis including locality pay calculations (increased costs or
savings), and estimated amount and expense for travel for the employee to return to their
original worksite. This information will be used to ensure direct costs do not impact
approved budget amounts. NARA 332 states anyone is eligible for long distance
telework as long as their duties can be performed away from a NARA facility. As these
arrangements become more popular, NARA may be faced with an increasing amount of
requests for special telework arrangements. A cost/benefit analysis would help
supervisors in their decision as to whether to approve the arrangement, as well as provide
some structure and impartiality to the approval process.


4
 Justification demonstrating benefits could include the unique qualifications of the employee and any cost
savings from not having to hire and train someone else if the employee departs NARA.
                                            Page 18
                         National Archives and Records Administration
                                                           OIG Audit Report No. 14-11


Recommendation

   5. T
      	 he Chief Human Capital Officer should issue additional guidance for long
      distance telework arrangements to require supervisors to conduct a cost/benefit
      analysis of the proposed arrangement and document this analysis. For those
      arrangements resulting in additional costs to NARA, supervisors should be
      required to justify how the arrangement is in the best interest of NARA.

Management Response

The Archivist concurred with the recommendation.




                                       Page 19
                    National Archives and Records Administration
                                                              OIG Audit Report No. 14-11


3. Proper Reimbursement for Travel Expenses
Travel expenses for long distance telework employees to return to their normal worksite
on official business were not always correctly reimbursed. According to 5 USC § 5702,
an employee, when traveling on official business away from the employee’s duty station
is entitled to a per diem allowance and reimbursement for the actual and necessary
expenses for the official travel. In the instances we identified, this occurred because the
employee was unsure as to whether or not they were entitled to reimbursement and
elected not to submit expenses for reimbursement even though reimbursement for official
travel is a statutory right. Failure to reimburse official travel creates a debt to the
employee, and NARA remains liable for these costs should the employee file a claim.

As mentioned in the previous finding, according to 5 USC § 5702, an employee, when
traveling on official business away from the employee’s designated post of duty, or away
from the employee’s home or regular place of business, is entitled to any one of the
following: a) a per diem allowance; b) reimbursement for the actual and necessary
expenses of official travel; or c) a combination of payments described above. Therefore,
when the employee’s duty station is changed to their telework location, any travel back to
the normal agency worksite to perform official business is eligible for reimbursement.

In at least four instances, employees returned to their original worksite for official
business but were not properly reimbursed for their travel expenses. One supervisor
stated she discussed travel expenses with the telework employee in setting up the long
distance telework arrangement, and they agreed in advance NARA would not pay the
travel expenses for the periodic return trips needed as part of the project the employee
was working on. In another instance, the supervisor assumed the employee was paying
their own travel costs, but stated travel reimbursement was not specifically discussed in
setting up the long distance telework arrangement. In the other two instances identified,
the employees returned to their original worksite annually to have a face-to-face meeting
with supervisors and receive laptop upgrades unable to be pushed out over the Internet.

We interviewed two of the four employees not properly reimbursed. One stated they
return to College Park approximately every five or six weeks depending on their
schedule. According to the employee, they did not receive any pressure from their
supervisor not to claim travel reimbursement for official travel but volunteered to pay
travel costs because it was their idea to relocate and they were thankful NARA was
flexible enough to allow them to work remotely. The employee estimated travel costs
were approximately $300 to $450 for a round trip train ticket. Travel did not include any
lodging costs because the employee maintained a residence in the area.


                                        Page 20
                     National Archives and Records Administration
                                                               OIG Audit Report No. 14-11


The telework agreement for the other employee we interviewed noted the individual
would return to College Park for a period of one or more full days on at least a bi­
monthly basis, and the employee would return on an ad-hoc basis as required or at the
request of the supervisor for important meetings, activities, events, etc. According to the
employee, they made three return trips to College Park during the last year, but did not
submit claims for reimbursement for the travel because the trips were made at their
discretion and not at the request of management. Therefore, they were unsure as to
whether they should file a claim for reimbursement. The employee stated travel costs
would have included either train fare, or mileage and tolls to drive their personally
owned vehicle to College Park. The employee stayed with friends therefore, lodging
expenses were not incurred.

Although these employees decided not to file claims for reimbursement, NARA policy
and Federal Travel Regulations do not specifically allow this type of arrangement. The
Telework Enhancement Act of 2010 identified the need for agencies to have greater
flexibility in travel expenses related to long distance teleworkers. In December 2013,
GSA amended the Federal Travel Regulations to incorporate the Telework Enhancement
Act of 2010 which establishes and authorizes telework travel expenses test programs.
Under a telework travel expenses test program, the agency may:

    1.) Pay any necessary telework travel expenses;

    2.) Provide a participating employee with the option to waive any payment

        authorized or required under 5 U.S.C. Chapter 57, Subchapter 1; or


    3.) Establish, for a participating employee who voluntarily relocates from his/her
        pre-existing duty station, a reasonable maximum number of occasional visits to
        the pre-existing duty station before that employee is eligible for payment of any
        incurred travel expenses by that agency for travel to the pre-existing duty station.

Specific authorization from the Administrator of General Services is needed for an
agency to conduct test programs. In order for NARA to participate in a test program, the
Archivist must design the test program to enhance cost savings or other efficiencies for
the Government, and submit in writing: a) an explanation of the test program; b) the
specific provision of the Federal Travel Regulations from which the agency is deviating,
and confirmation between the agency and the participating employee of any waivers of
entitlements by the employee under 5 USC Chapter 57, Subchapter 1; c) an analysis of
the expected costs and benefits; d) a set of criteria for evaluating the effectiveness of the
program; and e) agency procedures regarding how and when the telework program is
terminated for the participating employee when he or she voluntarily relocated to a
                                         Page 21
                      National Archives and Records Administration
                                                                OIG Audit Report No. 14-11


telework location. The Telework Enhancement Act limits the number of simultaneous
test programs to no more than 10.

Since NARA has not established a telework travel expense test program, NARA
employees are entitled to reimbursement for official travel back to their pre-existing
official duty station. Reimbursement for official travel is a statutory right, and failure to
reimburse travel expenses creates a debt to the employee. An employee has six years to
bring a claim based on that debt which could result in unexpected costs to NARA.


Recommendation

   6. 	The Chief Operating Officer should identify long distance teleworkers not
       correctly reimbursed for travel expenses incurred during official travel, and
       inform the employees of their right to reimbursement.

   7. 	The Chief Operating Officer should determine whether to participate in a telework
       travel expense test program, and if so, request approval from the Administrator of
       General Services.

Management Response

The Archivist concurred with the recommendations.




                                         Page 22
                      National Archives and Records Administration
                                                               OIG Audit Report No. 14-11


4. Timeframes for Long Distance Arrangements.

Of the 24 long distance telework arrangements, only one arrangement was created based
on a set project and specified a maximum end date. The remaining agreements did not
identify a timeframe surrounding the telework arrangement beyond the annual
requirement to review and renew the agreement. This occurred because NARA’s
telework policy and the telework agreement do not require supervisors and employees to
discuss a maximum end date. As result, supervisors and employees may have different
expectations regarding the length of time the long distance telework arrangement would
remain in effect.

OPM’s Guide to Telework in the Federal Government advises telework agreements are
living documents and should be revisited and resigned by the manager and teleworker
regularly. At a minimum, new telework agreements should be prepared and signed when
a new employee/supervisory relationship is established. According to NARA 332
Supplement 1, long distance telework agreements entered into are valid only while the
employee remains in the same position, and must be renewed annually. If an employee
changes positions, the employee’s previous telework arrangement terminates, and the
employee may submit a new telework agreement request if the new position is eligible
for telework. NARA policy does not address the need for a new telework agreement if
the employee’s supervisor changes, as suggested by OPM’s telework guide.

According to NARA 332, management may terminate the telework agreement if: (a)
there is a demonstrated decline in performance attributable to working at the alternate
site; (b) conduct issues have arisen; (c) the arrangement is not meeting organizational
needs; or (d) the arrangement is negatively affecting the unit’s overall efficiency.
Supervisors may terminate long distance telework arrangements by providing at least two
weeks advance written notice to the employee, and the employee must be told the
reason(s) for termination. Employees have 15 calendar days to grieve management’s
decision to terminate the telework agreement, or 45 days to contact an Equal
Employment Opportunity (EEO) counselor if they believe the decision was
discriminatory.

We identified only one long distance telework arrangement created based on a set project
with a maximum end date. In this instance, the employee created a plan describing the
work they were to accomplish remotely and estimated the amount of time it would take to
complete the task. Other long distance telework agreements we reviewed describe the
duties to be completed while teleworking as “all regular duties,” “meetings with
colleagues, research, other tasks as assigned,” or “all current and future duties relevant to
my role,” which indicates the undefined timeframe for the agreements. Supervisors
                                         Page 23
                      National Archives and Records Administration
                                                            OIG Audit Report No. 14-11


granted long distance telework arrangements, but expectations as far as how long the
telework arrangement would continue (i.e. one year, three years, for the rest of the
employee’s career) were not clarified. On one telework agreement the employee
annotated the duration was “until I retire,” even though the telework agreements have to
be reviewed and re-signed annually.

Some supervisors and executives expressed concerns regarding the undefined length of
the arrangements and whether changes could be made to the existing agreements.
Specifically, one executive stated that although the telework agreement has to be renewed
every year, he believed it would be difficult not to approve the long distance telework
arrangement in subsequent years if the employee was productive. Defining timeframes
as part of creating the telework arrangement would help ensure the supervisor and
employee had similar expectations.


Recommendations

   8. 	The Chief Human Capital Officer should revise the Telework Agreement (Form
       3040) or issue additional guidance for full-time and long distance telework to
       require supervisors and employees to estimate a timeframe for the arrangement,
       while still subject to the annual renewal.

   9. The Chief Human Capital Officer should revise NARA 332 to include a
       requirement that new telework agreements be prepared and signed when a new
       employee/supervisory relationship is established.

Management Response

The Archivist concurred with the recommendations.




                                        Page 24
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


5. Reasonable Accommodation Requests

Our review of special telework arrangements included six arrangements granted as a
result of reasonable accommodation requests. Of the six arrangements, two were not
documented using NA Form 3043 and NA Form 3044, as required. This occurred
because, in at least one instance, the accommodation was made orally based on the
employee’s health condition but not formally documented. According to NARA 303
“Processing Reasonable Accommodation Requests for Employees and Applicants with
Disabilities,” all requests for accommodation must be documented using the NA Form
3043 and NA Form 3044 in order for NARA to keep accurate records for annual
reporting purposes. Without having this documentation, NARA’s required statistics and
reports to the Equal Employment Opportunity Commission (EEOC) may not have been
accurate.

Reasonable accommodation is any change in the work environment, in the way things are
customarily done, or in the application process, that enables a person with a disability to
enjoy equal employment opportunities. A request for reasonable accommodation can be
made orally, in writing (e.g., email), or using NA Form 3043, “Confirmation of
Reasonable Accommodation Request.” According to NARA 303, if a request is made
orally, the employee must follow up the request with NA Form 3043. The decision
maker, in most cases the employee’s immediate supervisor, is responsible for reviewing
the NA Form 3043 with the employee and forwarding a copy of the form to the Disability
Program Manager. The decision maker ultimately makes a decision to either grant or
deny the request. Whether the accommodation is granted or denied, the decision maker is
responsible for completing NA Form 3044, "Disposition of Reasonable Accommodation
Request," and forwarding the form to the Disability Program Manager.

We contacted NARA's Disability Program Manager to determine whether the six
employees listed as full time telework based on reasonable accommodation requests went
through the formal process described in NARA 303 or whether the accommodations were
informal agreements between the supervisor and employee. The Disability Program
Manager had documentation for four of the six telework accommodations. The two
accommodations requests not formally documented were both from the same office.

We contacted the Director over the two accommodation requests that were not on file
with the Disability Program Manager to determine whether the office maintained the
completed NA Form 3044 for either of the two accommodations. According to the
Director, one employee had since retired and was no longer an employee. The other
employee had been teleworking since December 2011 and based on their research, it

                                        Page 25
                     National Archives and Records Administration
                                                           OIG Audit Report No. 14-11


appeared the accommodation was made orally based on the employee’s health condition
and there was no NA Form 3044 for the employee.

According to NARA 303, it is necessary to complete NA Forms 3043 and 3044 in order
for NARA to keep accurate records for annual reporting to the EEOC. The Disability
Program Manager is responsible for maintaining all forms and providing the EEOC with
required statistics and reports. Completed forms would also allow the Disability Program
Manager to oversee NARA’s compliance with the timeframes for processing requests and
providing reasonable accommodations.

Recommendation

   10. The Chief Operating Officer should formally document the full-time telework
       accommodation using Form 3044 and provide a copy of the completed form to
       NARA’s Disability Program Manager.

Management Response

The Archivist concurred with the recommendation.




                                        Page 26
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-11


6. Best Practices for Monitoring Telework Employees
NARA supervisors used several different techniques to effectively monitor telework

employees, and opportunities exist to identify and take advantage of best practices for

managing special telework arrangements. NARA’s telework policy does not include

techniques that could be used to monitor employees specific to NARA’s IT environment,

or best practices in establishing special telework arrangements. Sharing this information 

across NARA would assist supervisors who are responsible for monitoring productivity

and performance of telework employees.


We met with several supervisors across NARA offices and asked each one about the tools

and techniques they use to monitor telework employee’s productivity and performance. 

We compiled a list of best practices for monitoring telework employees and best

practices for establishing telework arrangements. 


Best Practices for Monitoring Employees


OPM’s Telework 101 for Managers course includes several tips for managers to
maximize the effectiveness of telework. For example, the OPM training recommends
managers establish effective communication techniques for staying in touch with
teleworkers, and for enabling and encouraging teleworkers to stay in touch with co­
workers and customers. With NARA’s transition to Google Mail, supervisors have
implemented the new features it offers to encourage communication between teleworkers
and their colleagues. Previously teleworkers were required to send a sign-in and sign-out
email to their supervisor when they started and ended their workday. In addition to the
sign-in/sign-out email, some supervisors now require employees to use the Google chat
feature so that co-workers and the supervisor would know when the telework employee
was available. Several supervisors also require their employees to create a custom
message for Google chat and enter the phone number where the employee can be
reached. Other offices used Google voice and video capability or Skype to virtually meet
periodically with teleworkers face-to-face.

At least one supervisor required her employees to use the remote access system, and save
their work on the office shared drive. NARA’s telework policy does not require
teleworkers to use the remote access system which gives employees access to their
individual and shared network drives. According to NARA 332, depending on the work
assignment, the teleworker may not need remote access. The employee and supervisor
must determine the nature of the work that will be performed while teleworking, and then
decide whether network access is needed. According to the supervisor, saving work on


                                        Page 27
                     National Archives and Records Administration
                                                              OIG Audit Report No. 14-11


the office shared drive allows them to go in at any time and see the progress made on an
assignment.

Best Practices for Establishing Special Telework Arrangements

Supervisors we interviewed provided some ideas as to how they set up the telework
arrangements to work for their offices. For example, two offices have created their own
Standard Operating Procedures (SOP) related to telework. The Office of the Chief
Records Officer formalized their office policies and procedures on telework. The SOP
established the maximum number of telework days per week team members may request,
and the expected level of communication for teleworkers. The Office of the Federal
Register created an SOP specific to requesting long distance “remote” telework. The
SOP, still in draft form, sought to establish criteria for granting or denying requests and
applied a “first-come/first-serve” principle to prevent staffing at official duty stations
from falling below the minimum number necessary to carry out required functions.

In another example, one office set up an arrangement where the employee teleworked
from a distant location and returned to their normal worksite every other week.
According to the telework agreement, the employee would work at their alternate
worksite the first week of the pay period and then return to College Park for three days
the second week of the pay period. Since the employee reported to their normal worksite
at least two days a pay period, their duty station did not change and the employee was
responsible for the cost to commute from their alternate worksite to their normal
worksite. The employee’s supervisor believed this arrangement worked well because the
employee was in the office occasionally and available to meet with other NARA staff
when needed.

We interviewed several supervisors who inherited long distance telework agreements.
The OPM Telework Guide recommends establishing a new telework agreement when a
new supervisor and employee relationship is created. A best practice would be for
supervisors to agree to extend the existing long distance telework agreement for a limited
trial period. This would allow the supervisor to determine how the arrangement would
work and also alerts the employee in case the long distance telework arrangement is not
renewed. One supervisor stated that they were unsure about the long distance telework
agreement they inherited, but agreed to a limited trial period of three months. The
supervisor stated the arrangement worked out very well, they had no complaints, and they
agreed to extend the telework agreement. Another supervisor stated they would not have
agreed to long distance telework requests initially, but they have not had any problems
with accessibility or productivity problems with the special telework arrangements they
inherited.
                                        Page 28
                     National Archives and Records Administration
                                                           OIG Audit Report No. 14-11


Recommendation

   11. The Chief Human Capital Officer should communicate best practices for
       monitoring telework employees and best practices in establishing special telework
       arrangements across the agency.

Management Response

The Archivist concurred with the recommendation.




                                       Page 29
                    National Archives and Records Administration
                                                   OIG Audit Report No. 14-11


Appendix A – Acronyms and Abbreviations

EEO     Equal Employment Opportunity
EEOC    Equal Employment Opportunity Commission
FPPS    Federal Personnel Payroll System
GSA     General Services Administration
NARA    National Archives and Records Administration
OIG     Office of the Inspector General
OMB     Office of Management and Budget
OPM     Office of Personnel Management
SOP     Standard Operating Procedures
TDY     Temporary Duty Assignment
TMO     Telework Managing Officer
USC     U.S. Code




                                 Page 30
              National Archives and Records Administration
                                                                                 OIG Audit Report No. 14-11 



Appendix B - Management’s Response to the Report





     ~ NATIONAL
      ARCHIVES


                                 APR 2 5 2014
          Date:
          To:                James Springs, Acting Inspector General
          From:              David S. Ferriero, Archivist of the United States
          Subject:           OIG Draft Audit 14-11, Audit of Special Telework Arrangements at NARA




     Thank you for the opportunity to provide comments on this draft report. We appreciate
     your willingness to meet and clarify language in the report.

     We concur with the 11 recommendations in this audit, and we will address them further in
     our action plan.




     DAVIDS. FERRIERO
     Archivist of the United States




      NAT IONAL ARCHIVE S and
      R[COROS 1\0MI NISTRATION

        860 1 AOEL I'HI ROA D
     COLU G E I'ARK. MD 20740-6001
           www. 4r,hives.go ••




                                            Page 31

                         National Archives and Records Administration
                                                         OIG Audit Report No. 14-11


Appendix C - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Chief Operating Officer
Chief Human Capital Officer
Director, Office of the Federal Register
Director, Performance and Accountability




                                       Page 32
                    National Archives and Records Administration
